No. 19A-204_

In The
Supreme Court of the United States
_A pos
GAIL ROSIER, +
Petitioner,

v.

JEFFREY STROBEL,
Respondent,
= A _
On Petition for a Writ of Certiorari
to the Supreme Court of Arizona

PROOF OF SERVICE
I declare that: I am a resident of Cayucos, California. I am over the age of
18 years and not a party to the within entitled cause. My name and address is
Dorothy Kleinhammer 1000 Park Avenue, Cayucos, CA 93430..

 

On October 25, 2019, I served pursuant to Supreme Court Rule 29.5, three
copies on all parties required the following document(s):

1. PETITION FOR WRIT OF CERTIORARI

(x) BY PRIORITY MAIL: Depositing a true and correct copy thereof enclosed in a
sealed envelope with the United States Postal Service with postage prepaid at
Atascadero, California. The envelope was addressed and mailed as follows:

William A. Richards

Baskin Richards, PLC

2901 N. Central Avenue, Suite 1150
Phoenix, Arizona 85012

The following respondent’s Counsel email address(es) has also been
ELECTRONICALLY served: dwood@baskinrichards.com

I declare under the penalty of perjury that the foregoing is true and correct.

Executed on October 25, 2019, at Atascadero, California. ,
+ ) \ —_
DATED: 10-25-2019 J} I. Xs pn
Dorothy Kleinhammer 4: Bho (le (XbhatUedr? eae
Name of person completing this form “(signature of person completing this form)

 
